DOE F 1325.8
(08-93)
United States Government                                                              Department of Energy

memorandum
          DATE:   July 28, 2010
   REPLY TO
    ATTN OF:      IG-40

  SUBJECT:        Letter Report on “Allegations Involving the National Nuclear Security
                  Administration’s National Security Vaults,” (INS-L-10-02, S09IS020)

    TO:           Principal Assistant Deputy Administrator for Military Applications, NA-10

                  The Office of Inspector General (OIG) received a complaint alleging that
                  improvements and clarifications were needed in both the Department of Energy
                  (Department) and National Nuclear Security Administration (NNSA) site-specific
                  policies and procedures regarding visitor access to nuclear weapons data and displays
                  within certain NNSA national security vaults. The complaint also included an
                  allegation regarding the need to improve the accountability of nuclear weapon models
                  displayed within the national security vaults. This Letter Report provides the results
                  of our inspection concerning these issues.

                  BACKGROUND

                  One of the primary missions of the NNSA is to ensure the safety and reliability of the
                  Nation’s nuclear arsenal. NNSA nuclear weapons activities are carried out in a
                  nationwide complex of Government-owned, contractor-operated sites that include
                  three national laboratories, a test site, and nuclear weapons production sites. These
                  facilities provide the necessary research, development and production capabilities to
                  maintain the reliability, security and safety of nuclear weapons.

                  Within the nuclear weapons complex, there are a small number of vault rooms that
                  are designated as “national security vaults.” These vaults contain a specialized
                  collection of classified nuclear weapons designs and data in the form of models,
                  diagrams and video displays. Similar to other classified vault rooms, national
                  security vaults are defined areas that are protected to prevent unauthorized access.
                  The Department’s Classified Matter Protection and Control policies along with DOE
                  Order 5610.2 (Order), “Control of Weapon Data Access,” provide requirements for
                  the handling, protection and control of nuclear weapons data within these vaults.
                  According to Department policies, access to nuclear weapons data within a vault must
                  be controlled by a vault custodian and access is granted based on a predetermined
                  “need-to-know” in the performance of an individual’s official duties.

                  RESULTS OF INSPECTION

                  The allegation concerning a need for improvements in the accountability of nuclear weapons
                  displays could not be substantiated. We did not find any indication that the displays were
lost or unaccounted for. During our review, we learned that periodically the displays may be
temporarily removed from national security vaults to other secure areas for briefings or for
educational purposes and then returned to the national security vaults. At one location, we
found past evidence that applicable Departmental policy regarding custodial control of
displays was not always being followed during these temporary moves. However, procedural
changes strengthening the chain of custody of the displays were implemented to ensure
compliance with Departmental policy prior to our inspection. We evaluated these procedural
changes and found them to be reasonable.

We did, however, substantiate the allegation that improvements and clarifications were
needed in both the Department’s and NNSA’s site-specific policies and procedures regarding
visitor access to nuclear weapons data and displays within certain NNSA national security
vaults. Specifically, DOE Order 5610.2, issued in 1980, does not address changes in the
nuclear weapons complex that have taken place over the last 30 years; thus, in our judgment,
the Order should be updated. Also, subject to appropriate review by the Department of any
potential security implications, there may be an opportunity to simplify the NNSA
Headquarters and the NNSA local site approval processes for access to nuclear weapons data
within national security vaults. These processes currently include steps that go beyond those
found in the approval process for access to nuclear weapons data in other locations within the
nuclear weapons complex and there is a question if these added steps bring value to the
process. Finally, site-specific procedures concerning access could be improved to strengthen
management internal controls and help ensure only those who have a need-to-know are
allowed access to nuclear weapons data in the national security vaults.

Revision of Policy—DOE Order 5610.2

We found that DOE Order 5610.2, “Control of Weapon Data Access,” should be revised to
address the many changes in the nuclear weapons complex that have occurred since the
Order was issued in 1980. This Order defines the “nuclear weapons complex” as it existed in
1980, and it establishes authorities, responsibilities and procedures for the access and control
of nuclear weapons data. The Order was developed and published prior to the existence of
NNSA and at a time when the United States was still testing nuclear weapons. As a result, it
does not reflect the many significant organizational and operational changes that have
occurred throughout the nuclear weapons complex during the last 30 years.

Specifically, various organizations are named in the Order as being part of the nuclear
weapons complex; however, some organizations no longer exist while others are now
managed by NNSA, and some new organizations have been created. As a prime example,
the NNSA Service Center did not exist when DOE Order 5610.2 was written; consequently,
its very important roles, responsibilities and authorities are not mentioned in the Order even
though it is central to the structure and operation of NNSA. For example, the NNSA Service
Center is now responsible for granting security clearances to individuals within the NNSA
nuclear weapons complex who require access to classified information, including nuclear
weapons data. Also, the Order names certain Department positions, such as the Manager of
the Oak Ridge Operations Office, as having authority to grant access to nuclear weapons
data; however, due to organizational changes over the last 30 years, the Manager of the



                                             2
Oak Ridge Operations Office is a Department employee who does not have authority under
existing NNSA policy to grant access to nuclear weapons data within the NNSA nuclear
weapons complex. While changes to the organizational structure of the nuclear weapons
complex have prompted the need for modifications of procedures, responsibilities and
authorities with regard to controlling and granting access to nuclear weapons data within the
nuclear weapons complex, such modifications have not been reflected in the Order.

From an operations perspective, there have been technological advances within NNSA’s
nuclear weapons program, such as the increased use of computer systems to store, access and
transmit nuclear weapons data; the use of supercomputers for advanced modeling instead of
real-time testing; and, the development of new facilities, such as the National Ignition
Facility. These advancements have not been addressed in the current Order with regard to
controlling access to nuclear weapons data.

Simplifying Procedures for Approving Access to Nuclear Weapons Data in the National
Security Vaults

Our review determined that, subject to appropriate review by the Department of any potential
security implications, there may be an opportunity to simplify the NNSA Headquarters and
the NNSA local site approval processes for access to nuclear weapons data within national
security vaults. These processes currently include steps that go beyond those found in the
approval process for access to nuclear weapons data in other locations within the nuclear
weapons complex and there is a question if these added steps bring value to the process.

Specifically, at both the NNSA Headquarters level and at the local NNSA site level, the
process for access to nuclear weapons data in national security vaults includes steps that are
not required for the simpler and less complex process to access the majority of nuclear
weapons data in other classified storage vaults, computer systems and storage media located
throughout the nuclear weapons complex. For example, access to nuclear weapons data by
any individual who has not been issued a “Q” clearance within the nuclear weapons complex
requires NNSA Headquarters review and approval, to include individuals outside the nuclear
weapons complex and individuals from other Federal agencies such as the military. NNSA
Site Office officials and designated facility contractor officials are authorized to grant access
to nuclear weapons data without the need for NNSA Headquarters review or approval if the
individual has been issued a “Q” clearance within the nuclear weapons complex. However,
if an individual requesting access to nuclear weapons data at a given site also requires access
to the national security vault, an added request and approval is needed.

NNSA Headquarters officials said that even though DOE Order 5610.2 does not specifically
mention national security vaults or any special access requirements for the vaults, NNSA
Headquarters currently requires a specific access request to visit national security vaults by
non-weapons complex individuals in addition to a request to access all other nuclear weapons
data at a given location. We were told that this process has been an on-going procedure for




                                              3
many years, but the exact reason for the special request and approval for national security
vault visits was not known. We were unable to locate any specific documentation that
explained the rationale for requiring a specific request to access nuclear weapons data in
national security vaults.

During discussions with senior officials, they agreed that a single approval process for access
to all nuclear weapons data at a given location would streamline the process without
adversely affecting security. We were told that nuclear weapons data in national security
vaults was no more sensitive than nuclear weapons data at the many other locations in the
nuclear weapons complex. For example, officials at one facility told us that the nuclear
weapons data in the national security vault was less sensitive than the critical nuclear
weapons design information stored at other secure locations at the site.

In addition, NNSA Site Offices and NNSA laboratory contractors have local memoranda of
understanding that establish approval processes which also differentiate between requests for
access to nuclear weapons data inside national security vaults and requests for access to
nuclear weapons data outside national security vaults. For example, at one nuclear weapons
facility, local facility contractor officials had authority to grant all nuclear weapons complex
individuals access to nuclear weapons data at the facility except for nuclear weapons data
inside the national security vault. Access to nuclear weapons data inside the national security
vault required NNSA Site Office approval. The facility was only given the authority to grant
their own employees access to the national security vault even though the facility had the
authority and ability to verify security clearance and access level information for anyone
within the nuclear weapons complex.

Officials responsible for weapons program activities and vault administration gave examples
of important visitors being denied access to national security vaults for unknown
administrative reasons associated with the specific access request requirement. The visitors
were denied access even though they had already been approved for and had access to other
nuclear weapons data during the visit that was more sensitive than the data in the national
security vaults. In addition, officials at the sites we visited told us the individual site access
approval processes were not always consistent throughout the complex and this has caused
delays and confusion concerning national security vault visits. Also, officials within the
NNSA nuclear weapons complex that we interviewed expressed the opinion that the
responsible NNSA facility contractor, in most cases, was better positioned to review requests
and grant access to nuclear weapons data, including access to national security vaults,
without the added steps of Site Office approval. It should be noted that facility contractors
routinely perform these types of functions on a day-to-day basis and the Site Offices would
still maintain oversight responsibility for the access approval process.

Controls Over Need-to-Know Access to Nuclear Weapons Data within the National Security
Vaults

We found that site-specific procedures concerning access could be improved to strengthen
management internal controls and help ensure only those who have a need-to-know are
allowed access to nuclear weapons data in the national security vaults.



                                              4
Specifically, NNSA Headquarters officials told us that the local facilities that own and
control the nuclear weapons data are primarily responsible for determining need-to-know.
Nuclear weapons program custodians at the local facilities are assigned responsibilities for
the control and accountability of the nuclear weapons models displayed within national
security vaults. However, these custodians were not always involved in the vault access
request approval process and were not always aware that visitors were allowed to view
displays they were responsible for. At one site in particular, division managers who were not
part of the nuclear weapons program, and who were not weapons designers, were approving
visits to the national security vault without custodian knowledge or input. Officials we
interviewed said that an impartial review by a custodian knowledgeable in nuclear weapons
would add value to a need-to-know determination.

In addition, we identified three areas where opportunities exist to improve vault access
controls. These areas include vault visits, access requests, and log books.

      Purpose of Vault Visits. National security vaults contain a variety of nuclear
       weapons display models, visual aids and other weapons-related information and
       materials. These vaults are often compartmentalized with the ability to shroud or
       conceal certain displays when a visitor, or group of visitors, may not need access
       to everything in the vault. However, in some cases we learned that individuals
       approved for access may have had visual access to areas in a vault that may not
       have been pertinent to the purpose of the visit, or to the level of the individual’s
       need-to-know. In addition, in reviewing records of visit requests between
       May 2007 to August 2009 at one site, we observed that some records did not
       provide clear purpose statements pertinent in determining which weapons
       displays or materials needed to be concealed and which needed to be displayed.
       Without clear purpose statements, vault custodians are not in the best position to
       determine which displays need to be shrouded or concealed.

      Access Request Forms. NNSA facilities have written policies specifying that
       contractor management officials, such as division managers, could approve access
       requests to national security vaults for individuals within the nuclear weapons
       complex. However, our review of access request records revealed that a number
       of subordinates, including administrative assistants, were actually signing the
       authorization forms even though there was no policy in place to allow for this.
       Interviews with these administrative assistants revealed they were simply signing
       and submitting the request forms on behalf of managers with little knowledge of
       the purpose of the visit or the need-to-know requirements.

      Vault Room Entry Log Book. At one location, some signatures found in the vault
       room entry log book were illegible to the point where we could not immediately
       determine who had entered the vault. Further, employee identification numbers
       were not recorded in the book as required by the facility’s vault room policy.




                                             5
       During our review, the facility vault custodian revised log book sign-in
       procedures to ensure the log book recorded both a legible visitor signature along
       with an employee identification number in accordance with their vault room
       policies.

Also, during our review, we determined that the vast majority of individuals visiting the
national security vaults had official duties within the nuclear weapons program. However,
we found that individuals whose official duties, in our judgment, were not directly related to
the nuclear weapons program were periodically given tours of national security vaults or
given briefings using classified nuclear weapons displays in the vaults. We provided the
results of our review to officials within NNSA’s Office of Defense Programs for appropriate
action.

SUGGESTED ACTIONS

To assist with opportunities for improving policies and procedures used for determining
access to national security vaults, we suggest that the Principal Assistant Deputy
Administrator for Military Applications:

   1. Revise DOE Order 5610.2, “Control of Weapon Data Access,” to address the
      changes in the nuclear weapons complex that have occurred since the Order was
      issued in 1980.

   2. Subject to appropriate review by the Department of any potential security
      implications, assess the process for approving access to nuclear weapons data in
      national security vaults and take appropriate actions to simplify, add clarity and
      improve efficiencies of operations.

   3. Evaluate the need to implement policies and procedures that include custodian
      assessments and clear purpose statements and authorized signatures on request
      forms, to help ensure that only those who have a need-to-know are allowed access
      to nuclear weapons data in the national security vaults.

Since we are not making any formal recommendations in this report, a formal response is not
required.

We appreciate the cooperation we received from your staff during our inspection. If you
have any questions concerning this inspection, please contact Mr. Richard W. Curran,
Director, Western Region, at (505) 845-5153.



                                         Sandra D. Bruce
                                         Assistant Inspector General
                                          for Inspections and Special Inquiries
                                         Office of Inspector General


                                             6
Attachment

cc: Chief, Health, Safety and Security Officer, HS-1
    Director, Office of Internal Controls, NA-66
    Director, Office of Internal Review, CF-80
    Team Leader, Office of Risk Management, CF-80
    Audit Resolution Specialist, Office of Risk Management, CF-80




                                         7
                                                                            Attachment


SCOPE AND METHODOLOGY

This inspection was performed between July 2009 and March 2010 at selected locations
within the National Nuclear Security Administration (NNSA) complex. Due to the subject
matter addressed in this report, specific sites are not identified. To accomplish the objectives
of the allegation-based inspection we:

      Reviewed and evaluated both Department of Energy and site-specific policies and
       procedures that provide requirements for access to nuclear weapons data;

      Toured and evaluated national security vaults at selected NNSA sites;

      Reviewed national security vault access logs and judgmentally selected and reviewed
       individual national security vault access records, including information in the
       Department’s Weapons Data Access Control System; and,

      Interviewed key NNSA Headquarters, Site Office, and contractor officials regarding
       access to nuclear weapons data.

This inspection was conducted in accordance with the current Council of the Inspectors
General on Integrity and Efficiency “Quality Standards for Inspections” issued by the
President’s Council on Integrity and Efficiency.




                                             8
